       10/ 01/ 200 9 10: 05      000 000 000 0                        LOs ANGELES OIG                                     02/ 02
                                                                                                                PAGE
    SP.p 26 08 oa:~aa
                                                                                                                       I"'~




                                                               R CORPORATION
                                NATIONAL RAILROAD l'ASSENGE
                                       OFFICE 0'1.11NSPECrO~ GENERAL
                                         Oll'liICE OF INVESTIGATIONS
                                      INVESTXGATlVE CLOSXNG REPORT

                                                                                    CASE NUMBER: 04-30
          '.flTLJ!::           Thea:• • •
                                ~          ._
                                     r 1,2009
           DATE OF REPORT:           (     :~
           RlJ)PORT:PREPMum B1
          1.l1INll~NgS  FACT' AND RECQMMJJ!.l\IDATIONS
                           OF


           /)., F!NpING~ Ql1l1:AC-I
                                                   olt ("LSA" ) packet J;ev iews by tile Office of Inspector Oeneral
           1.            l:.eo.d SOl'1line Attendo
                                                                                       paokets velo'.1eing to ~~. .
                ,"r.Tn'», Office of Inv    estigations ("01"), it was deterruinoo that SAles runoun.ts. The paokets had
                                       former LSA, had contained under reported S") Clerks who had previously
                                             Provision Mrulag~I\\cnt Systel'1l ("TPM           l gain.
                                                            ~'etain Amtrak funds for persona
                been impJloated in aetivitios designed to
                                              kets  belongin g to         that conlllined under reported sales
            2. or found   sov en (7) sales pac
                amoull(s totaling $2,997.25.
(
                                       nge rocllt that _         had failed  to  remit $2,997.25, and Amtrak issued
           ::I. 01 roported to man
                                                             February 13,2004.
                ndmjllistrative cl1arges ag ain st_ on
                                                                200~.
           4.            wns temililat~d by AmlXak on Ma rch 4,

                On August 31, 200S, 01 rofoned             'R   case to the United States Attorney's Office.
           5.
                                                      Atto!1le>y's Office dec lined pxosccufion ot
           6.   01\ Jlm e 1, 2006, Ille United Slates
                                                                                           e prosec\IUcn of
                On October Z6, 2006, the _         Slate's Attorney's Offico agreed t~suun ty on Ootober
           7.                                                             uit Court of_ Co
                •• •. _        w«~ indioted by tile (h'!ll\d Jmy oHne Ciro
                30,2006.
                                                                                                                Coll\t of
                            er 27, 20   07     ,_  was  con vJcted of theft by a plea of guilty in tho CircuitoKdcl'ed to
            8. On Decemb                                        ) months of probation. _w as also
               _     CUullty and se.t).tcnced \0 eighteen (18
                                                           1,800.
               pay Arulmk Hlstitution in 1111,) am.ouot 0[$
                                      final restitution payment on September
                                                                                 29, 2009.
            9. or recoiivedl


            1. Close caso.
            Chi ef l11SII,ccllor: _ _



            I:ln';n" Reuort Q4"30.docL
